1.

I

\

APPENDIX

i'

wt2665o4

'37Kas„m
IN THE DISTRICT COURT OF DOUGLAS OOUNIY, NEBRASKA
CR 10-9042117
Doc. 149 Page 834

STATE OF NEBRASKA,
Plaintiff,

DOUGLAS COUNTY NEBRASKA

MAR 02 2016
JOHN M. FRIEND
CLERK DISTRICT COURT

Successive Motion for Postconviction

VS.

Relief

JUAN LUIS UBONOR,
Defendant.

GCMES NOW, Juan Luis Leonor, the defendant, pro se, and pursuant to Neb. Rev.
Stat. § 29-3001 (reissue 2008 & cum supp 2014), hereby asks the Court to vacate his
sentences and convictions for murder in the second degree and use of a weapon linked
to the murders, because (as will be shown below), these convictions and sentences
were in violation of the Nebraska and U.S. Constitutions.
Mr. Leonor addresses that he meets the requirements of § 29-3001(4)(Cum supp.
2014).

That is, under the new U.S. Supreme Court decision in Montgomery v. Louisiana,

2016 U.S. LEXIS 862 (decided January 25, 2016), Mr. Leonor is entitled to the rule
made in State v. Ronald-Smith, 282 Neb. 720 (2011), a rule that was held not to be
retroactive to cases already final on direct review.

See State v. William-Smith,

284 Neb. 636, 654-655 (2012).
Under Montgomery, however, Mr. Leonor addresses that Ronald-Smith applies retroactively to his case.

ln Montgomery, the U.S. Supreme Court held that, "[w]here

a state collateral review proceedings permit prisoners

to challenge the lawfulness

of their confinenment, States cannot refuse to give retroactive effect to a substantive
constitutional right that determines the outcome of that challenge." Id. 2016 U.S.
LEXIS 862, * 23.

Montgomery also requires that Alleyne v. United States, 133 S.Ct.

2151 (2013) and Johnson v. United States. 135 S.Ct. 2551 (2015), be applied retroac-

1

n
tively to Mr. Leonor's case which is already final on direct review.
A.

Ronald-Smith is a “substantive** rule.

"A decision that modifies the elements of an offense is normally substantive
rather than procedural -M See Schriro v. Summerlin, 542 U.S. 348 (2004); see also
State v. Mantich, 287 Neb. 320 (2014)(citing Schriro y. Summerlin).

Mr. Leonor asserts

that the decision in Ronald-Smith modified the elements of Murder in the Second degree
and voluntary manslaughter, see State v. Hinrichsen, 292 Neb. 611, 622 (2016)("Based
on [the] clarification of the elements of the crimes of second degree murder and
voluntary manslaughter, [the Nebraska Supreme Court] concluded that the second degree
murder to manslaughter step instruction given in Smith was incorrect.")(emphasis
added).
Also, in Ronald-Smith, the Nebraska Supreme Court addressed a question grounded
in the "due process" realm, yet the Court did not say whether it was "due process"
under the Nebraska or the U.S. Constitution. See Id. 282 Neb, at 727 ("Smith contends
that the step instruction given by the district court deprived him of due process
because it did not allow the jury to consider whether his specific intent to kill
was the result of a sudden quarrel."),

The Nebraska Supreme Court agreed with Smith,

and held the following: "the second degree murder to manslaughter step instruction
given ... was incorrect."

See Hinrichsen, 292 Neb, at 622.

Therefore, Mr. Leonor has made a showing that the decision in Ronald-Smith is
substantive decision that modified the elements of murder in the second degree and
voluntary manslaughter, which applies retroactively to his case.
B. Allcyne v. United States is a "substantive" rule.

2

Montgomery, 2016 U.S. LEXIS 862, *21 (MA conviction or sentence imposed in violation
of a substantive rule is not just erroneous but contrary to law and, as a result,
void.")(citing Ex parte Siebold, 100 U.S. 371 (1880)).
D. Montgomery overcomes any procedural bars to Mr. Leonor's

ClaimsIn Montgomery, the U.S. Supreme Court held that "as a general principle, that
a court has no authority to leave in place of a conviction or sentence that violates
a substantive rule, regardless of whether the conviction or sentence became final
before the rule was announced."

Id. 2016 U.S. LEXIS 862, •*21.:

This Court's precedents addressing the nature of substantive rules, their
differences from procedural rules, and their history of retroactive application
establish that the constitution requires substantive rules to have retroactive
effect regardless of when a conviction became final.
Id. at 16.
Mr. Leonor asserts that, because his claims are based on Alleyne, Johnson, and
Ronald-Smith, a procedural bar or a waiver, do not apply in this proceeding.
E. Mr. Leonor's convictions and sentences are unconstitutional
by virtue of the following issue:
1.

The U.S. Constitution requires that Mr. Leonor be entitled to have his jury
nmBrlrfCT- yfaetfrer Mr. Leonor committed manslaughter and not murder in the
second degree.
On November 18, 2011, the Nebraska Supreme Court decided ItonaId-Smith, holding

that a defendant is entitled to have his jury consider whether that defendant committed manslaughter and not murder in the second degree.
5

That is, a jury must be

permitted "to consider the alternative possibility that the killing was intentional
but provoked by a sudden quarrel, and therefore constituted manslaughter." Id. 282
Neb. at 734.

Mr. Leonor's jury, .however, did not have the opportunity to consider

the alternative possibility that the killing was intentional but provoked by a sudden
quarrel; i.e., Mr. Leonor's jury was not given the opportunity to know that the
presence or absence of sudden quarrel was the determinative factor for a finding of
guilt of the charge of intentional manslaughter or intentional murder in the second
degree.
Mr. Leonor's jury was instructed as follows, in regards to the charges of murder
in the second degree, two counts:
The material elements which the State must prove by evidence beyond a
reasonable doubt in order to convict the defendant Juan L. Leonor, ... of the
crime of murder in the second degree are:
1. That the defendant, on or about November 22, 1999, either alone or
while aiding and abetting another, did kill Sylvia Valadez;
2. That he did so in Douglas County, Nebraska; and
3. That the defendant, either alone or while aiding and abetting another,
did so intentionally, but without premeditation.
The State has the burden of proving beyond a reasonable doubt each and
every one of the foregoing material elements of the crime of murder in the
second degree in order to convict the defendant of the crime of murder in the
second degree.
If you find from the evidence beyond a reasonable doubt that each of the
foregoing material elements in this Section I is true, it is your duty to find
the defendant guilty of the crime of murder in the second degree • • • done
intentionally, but without premeditation, and you shall indicate by your verdict.
On the other hand, if you find that the State has failed to prove anv one
or more of the material elements in Section I, it is your duty to find the
defendant not guilty of the crime of murder in the second degree • • « You shall
then proceed to consider the lesser-included offense of manslaughter.. • •
See (Exhibit # 1, Instruction No. 4, COUNTS I & II of SECTION I).
6

This Jury Instruction No. 4, that Mr. Leonor has addressed above in regards
to murder in the second degree, did not allow the jury to consider the possibility
that the killing was intentional but provoked by a sudden quarrel, as required by
State v. Ronald-Smith.
Mr. Leonor's Jury was also instructed as follows:
The defendant can be guilty of murder in the second degree or manslaughter
even though he personally did not commit every act involved in the crime so
long as he aided someone else to commit it. The defendant aided someone else
if:
(1) The defendant intentionally helped or encouraged another person
to commit murder in the second degree or manslaughter;
(2) The defendant knew that the other person intended to commit murder
in the second degree or manslaughter; and
(3) the murder in the second degree or manslaughter in fact was committed
by that other person.
(Exhibit # 2, Jury Instruction No. 6).
This Jury Instruction No. 6, that Mr. Leonor has addressed above in regards
to both murder in the second degree and manslaughter being intentional crimes, did
not allow the jury to consider the possibility that the killing was intentional but
provoked by a sudden quarrel, as required by Ronald-Smith.

The only thing that

this Jury Instruction No. 6, did, was not to require the State to prove beyond a
reasonable doubt the material element of "intent."

In fact, there was not Jury

Instruction regarding "aiding and abetting," that required the State to comply with
its "beyond a reasonable doubt" burden. The only "beyond a reasonable" burden that
the State had in the eyes of the jury, was only if Mr. Leonor was on trial as the
principal.

(Exhibit # 1).

Further,

See also (Exhibit # 2 & 3) regarding aiding and abetting.

Mr. Leonor asserts that the trial court, by instructing the jury on
7

manslaughter (Exhibit # 1, Instruction No. A, Counts I & II, Sections II; & Exhibit
# 2, Instruction No. 6), it means that the trial court complied with § 29-2027, by
finding that there was evidence of the presence of sudden quarrel, as required by
But as
Ronald-Smith and William-Smith, see State v . Hinrichsen, 292 Neb, at 623^
argued above, Mr. Leonor's jury was not

instructed in accord with federal due process

because that jury was not given the option to consider the possibility that the
killing was intentional but provoked by that sudden quarrel.
The evidence presented at trial by the State, established the presence of sudden
•LOMAS", sought
quarrel. The State argued that the victims, members of the rival gang
defendant, Mr. Gonzales, by throwing gang signs
to beef up with Mr. Leonor and his cothe victims provocation by throwing gang signs
to them; that Gonzales reacted to
while Mr. Leonor
back, and consequently Gonzales started shooting at the victims' car
was driving his vehicle,

See State v

. leonor. 263 N’eh. 82 . 97 ( 2002)("Evidence shoved

that [Mr. Leonor] and Gonzales has shot someone who had thrown a Lomas gang sign at
them.").
Also, a police officer testified that, since the middle of 1998, there was a
and Surenos gang members,
marked increased in violence in South Omaha involving Lomas
homicides and drive-by shootings.

and that it escalated significantly in 1999, as to
See (Exhibit # 4)•

Evidence was also adduced at trial that a mother of a member of the Surenos
gang (which Mr. Uonor belonged to), had been shot days before this shooting by a
Lomas gang member.

See (Exhibit #5).

Based on the evidence above, there

had been sufficient provocation upon which

stand the chance of getting
Mr. Leonor’s co-defendant, Mr. Gonzales was not going to
war
killed or shot by the Lomas gang members who had provoked them by calling for
initiated by Lomas' gang signs.

Gonzales did not have to wait to see if the victims
8

had or not a gun.

Rather, it was foreseeable that if the victims called out for

war, it meant that Leonor and his co-defendant could have been shot or killed.

See

State v. Foster 286 Neb. 826, 850-853 (20l3)(,,Smith's general statement that gang
members have guns and use them ... was a fact that would have been known by the
jury as a matter of coranon knowledge." "It is coimion knowledge that gang members
have guns, the gang members use guns

• • • ♦

”)•

Therefore, Mr. Leonor asserts that he is entitled to have his jury consider
the alternative possibility that the intentional killing was the result of a sudden
quarrel, in accordance with the 5th, 6th and 14th Amendments to the U.S- Constitution
and as held in Ronald-Smith.

Mr. Leonor is entitled to a new trial.

Mr. Leonor asserts that he has pleaded sufficient facts showing a violation of
his constitutional rights, that entitles him to an evidentiary hearing.

But to avoid

all that process, Mr. Leonor asserts that § 29-3001 gives this Court the power to
grant him a new trial without the evidentiary hearing.
A final note, Mr. Leonor asserts that in May 30, 2012, he brought a postcon­
viction motion within one year following the decision in Ronald-Snith asking for a
new trial based on that holding, but this Court denied him relief; the court found
that this claim was procedurally barred,

(See Court records, Order denying post-

conviction relief, filed April 6, 2012; and successive postconviction motion, pp.
28-33).

However, as argued above, under Montgomery v. Louisiana, this Court is

compell to apply retroactively the ruling in Ronald-Smith to Mr. Leonor s case, without
regard to a procedural bar.
2.

The U.S. Constitution requires that Mr. Leonor's convictions for murder in
the Second Degree and the weapon convictions related to the murders, be
dismissed as insufficient because the State failed to meet its burden .__of_
proving the absence of sudden quarrel beyond a reasonable doubts
9

The U.S. Constitution "protects the accused against a conviction except upon
proof beyond a reasonable doubt of every fact necessary to constitute the crime with
which he is charged.

See In re Winship, 397 U.S. 397 U.S. 358 (1970).

The State

has a duty to prove beyond a reasonable doubt a "fact" or ingredient that would
constitute an element of the offense charged, when that fact will increase either
the mandatory "minimum" or the mandatory "maximum" punishment.

See Alleyne v. United

States, 133 S.Ct. at 2151.
The current law in Nebraska is that the fact that distinguishes murder in the
second degree from intentional manslaughter, is the presence or absence of sudden
quarrel.

See State v. Hinrichsen, 292 Neb, at 622.

Although current Nebraska law

does not command the State to prove beyond a reasonable doubt the "absence of sudden
quarrel," but only if there is any evidence of sudden quarrel, the trial court is
required to instruct the jury to consider whether the intentional killing was committed
under provocation, so that the crime be reduced to manslaughter, however, under the
U.S. Constitution as envisioned in Alleyne, makes the "absence of sudden quarrel" an
element of the offense (in this case will be murder in the second degree), and that
element must be proven beyond a reasonable doubt to a jury.

This is because, the

absence of sudden quarrel increases the minimum sentence of one year to twenty years
from otherwise the presence of sudden quarrel, to 20 years to life.
requires that the

Therefore, Alleyne

absence of sudden quarrel be proven beyond a reasonable doubt.

It follows that, based on the evidence adduced at trial by the State, it is
evident that the presence of sudden quarrel is established,

With that evidence of

sudden quarrel, Mr. Leonor should not have been charged with murder in the second
degree, but rather, with manslaughter,

Because the State has failed to meet its

burden of proving beyond a reasonable doubt the absence of sudden quarrel, Mr. Leonor
is entitled to the dismissal of the charges of murder in the second degree and the
10

weapon charges that derived of the murders.
As argued above, in claim D, 1, p. 8,

the evidence at trial establishes that

the killing was the result of a sufficient provocation.

The evidence established

that the victims had provoked Mr. Leonor and his co-defendant with gang signs, which
meant war, see State v. Leonor, 263 Neb, at 97 ("Evidence stoned that [Mr. Leonor]
and Gonzales had shot someone who had thrown a Lomas gang sign at them.").
common knowledge that gang members have guns and use them.
286 Neb. at 850 & 853.

It is

See State v. Foster

Ihe evidence at trial also established that Mr. Leonor's

gang and the victims' gang were involved in violence against each other, which it
included killings and drive-by shootings.

(Exhibit # A).

Therefore, Mr. Leonor asks that the charges for murder in the second degree be
dismissed because those convictions and sentences (including the weapon convictions
and sentences), were in violation of the 5th, 6th and 14th Amendments to the U.S.
Constitution, that is, the State failed to prove the absence of sudden quarrel, an
element that is required to be proven to obtain a conviction of murder in the second
degree.

If that element was not proven, it means murder in the second degree was

not proven.
Montgomery v. Louisiana commands that Alleyne be applied retroactively to Mr.
Leonor's case.

Mr. Leonor has made a showing of a violation of his U.S. Constitu­

tional rights, and thus he is entitled to postconviction relief, without the requirment of an evidentiary hearing; unless the court finds it necessary.
necessary is on the record before the court,

Everything

In the alternative, Mr. Leonor asks

for an evidentiary hearing.
3.

§ 28-304 and the Ronald-Smith Jury Instruction are unconstitutionally vague.
The Fifth [and Fourteenth] Amendment[s] provide[] that no person shall
11

him to postconviction relief, i.e., the dismissal of the charges against him, and
Mr. Leonor asserts that relief

his discharge from these charges and sentences,

can be granted without an evidentiary hearing, however, if the Court finds it
should be granted, it should order it so.
CONCLUSION
Leonor respectfully asks that postconviction relief be granted, and that he
be discharged from the murder in the second degree and weapon charges, or be granted
a new trial.
Submitted this

is

day of

-ho. ri/a
/

kihcoln, NE 68542-2500
VERIFICATION
STATE OF NEBRASKA
ss.
COUNTY OF LANCASTER
COMES NOW, Juan Luis leonor, the defendant, pro se, being first duly sworn
upon oath, hereby deposes and states he is the undersignsd defendant in the above
and foregoing cause of action, Motion for Postconviction Relief, That he knows
the contents therein, and states and avers that to the best of his knowledge and
understanding of the facts and statements contained therein are true and accurate.
The motion was filed by the defendant himself.
s Leonor ,-H/v
SUBSCRIBED AND SWORN TO before me and in my presence on this (7$ _day of
2016.
SEAL:

A GENERAL NOTARY - State of Nebraska
JL BRADLEYS. EXSTROM
My Comm. Exp. March 2.2018

17

,

I

APPENDIX

M

ft

IN THE DISTRICT COURT OF DOUGLAS COUNTY, NEBRASKA,

\s-wv\n
THE STATE OF NEBRASKA,

)
)
)
)
)
)
)
)
)

Plaintiff,
Vs.

JUAN LUIS LEONOR,
Defendant.

DOC. 149

NO. 834

ORDER DENYING
SUCCESSIVE MOTION
FOR POSTCONVICfirON
RELIEF

PROCEDURAL HISTORY

Spp 0 6 2017

aufiSSSss-

The defendant, Juan L. Leonor was convicted of one count of first degree assaull

and use of a deadly weapon to commit a felony and with two counts of second degree
murder and two counts of use of a deadly weapon to commit a felony after a trial by jury.
On November 28, 2000, the defendant was sentenced to a term of twenty years to life for
two counts of second degree murder, five to ten years on 3 counts of use of a deadly
weapon to commit a felony and five to ten years for 1 count of assault with all sentences
to run consecutive.
The defendant appealed his conviction to the Nebraska Supreme Court on
December 14, 2000. On February 1, 2002, the Nebraska Supreme Court affirmed the
defendant’s conviction and the trial court’s sentence of the defendant. In 2003 and 2008,
the defendant filed motions for post-conviction relief which were denied by the Douglas
County District Court and the denials of which were affirmed on appeal (See
Memorandum Opinion and Judgment on Appeal, Dec 8, 2010).

0

IS

On or about March 9, 2012, the defendant filed a Successive Motion for
Postconviction Relief, a Motion to Recuse in Postconviction Proceeding, a Motion for
Appointment of Counsels and a Motion to Proceed in forma Pauperis which this Court
denied on the basis of Defendant’s motion being an improper successive motion.
On March 2, 2016, the Defendant filed a Successive Motion for Postcoviction
Relief wherein the Defendant is seeking to have this Court vacate his sentences and
convictions for second degree murder and use of a weapon. Defendant now claims that
during his trial the trial court gave an erroneous step jury instruction for second degree
murder to manslaughter which led to his conviction. And that subsequent to his
conviction the Nebraska Supreme Court in State v. R. Smith, 282 Neb. 720 (Neb. 2011),
held that a step instruction that required a jury to convict on second degree murder if it
found that a defendant killed intentionally, but did not permit the jury to consider the
alterative possibility that the killing was intentional but provoked by a sudden quarrel and
there constituted manslaughter was an incorrect statement of the law.
ANALYSIS
After considering the matter, the Court now finds as follows:
1.

A defendant requesting post-conviction relief must establish the basis for

such relief, and the findings of the district court will not be disturbed unless they are
clearly erroneous. State v. Marshall. 269 Neb. 56, 61 (Neb. 2005). The need for finality
in the criminal process requires that a d defendant bring all claims for relief at the first
opportunity. Hall v. State, 264 Neb. 151,159 (Neb. 2002). A motion for post-conviction
relief cannot be used to secure review of issues which have already been litigated on
direct appeal, or which were known to the defendant and counsel at the time of trial and

2

which were capable of being raised, but were not raised, in defendant’s direct appeal.
State v Kiethlev. 238 Neb. 966, 969 (Neb. 1991).
2.

Section 29-3001 of the Nebraska Revised Statutes provides with regard to

successive postconviction motions, “the court need not entertain a second motion or
successive motions for similar relief on behalf of the same prisoner. Neb. Rev. Stat. § 293001 (Reissue 2008). Postconviction proceedings are not a tool whereby a defendant can
continue to bring successive motions for relief. Hall v. State, 264 Neb. 151, 159 (Neb.
2002).
3.

A defendant moving for postconviction relief must allege facts which, if

proved, constitute a denial or violation of his or her rights under the state of federal
Constitution. State v. Ryan, 257 Neb. 635, 646 (Neb. 1999). The Court in Ryan further
stated with regard to the filing of additional postconviction motions:
An appellate court will not entertain a successive motion for postconviction
relief unless the motion affirmatively shows on its fact the basis relied upon
for relief was not available at the time the movant filed the prior motion,
[citation omitted]. Once a motion for postconviction relief has been
judicially determined, any subsequent motion for such relief from the
same conviction and sentence may be dismissed unless the motion
affirmatively shows on its fact that the basis relied upon for relief was
available at the time the prior motion was filed.
Id. at 647.
4.

Postconviction motions are subject to the limitations period set forth in

§ 29- 3001(4), which states:
A one-year period of limitation shall apply to the filing of a verified motion for
postconviction relief. The one-year limitation period shall run from the later of:
(a) The date the judgment of conviction became final by the conclusion of a direct
appeal or the expiration of the time for filing a direct appeal;
3

(b) The date on which the factual predicate of the constitutional claim or claims
alleged could have been discovered through the exercise of due diligence;
(c) The date on which an impediment created by state action, in violation of the
Constitution of the United States or the Constitution of Nebraska or any law of
this state, is removed, if the prisoner was prevented from filing a verified motion
by such state action;
(d) The date on which a constitutional claim asserted was initially recognized by
the Supreme Court of the United States or the Nebraska Supreme Court, if the
newly recognized right has been made applicable retroactively to cases on
postconviction collateral review; or
(e) August 27, 2011. •
Neb. Rev. Stat. § 29- 3001(4) (Reissue 2016).
5.

An evidentiary hearing on a motion for post-conviction relief is required

on an appropriate motion containing factual allegations which, if proved, constitute an
infringement of the movant’s rights under the Nebraska or federal constitution. When
such an allegation is made, an evidentiary hearing may be denied only when the records
and files affirmatively show that the defendant is entitled to no relief. State v. Marshall.
269 Neb. 56, 61 (Neb. 2005); State v. McHenry. 268 Neb. 219,224 (Neb. 2005).
ANALYSIS
6.

Upon review of Defendant’s successive motion it appears that Defendant’s

motion is both procedurally barred as a “successive” motion and also time barred under
Neb. Rev. Stat. § 29- 3001(4) (Reissue 2016). This matter is controlled by the Nebraska
Supreme Court’s ruling in State v. Harrison. 293 Neb. 1000 (Neb. 2016).

4

7.

In the instant case, Defendant Leonor is contending that his sentences and

convictions should be vacated because of a step jury instruction on second degree murder
and manslaughter that was given during his trial back in 2002 which was later found to be
an incorrect statement of the law in State v. R. Smith, 282 Neb. 720 (Neb 2011) and
again in State v. Trice. 286 Neb. 183 (Neb. 2013). Defendant Leonor contends that the
decision in State v. R. Smith where the Court held that a step instruction which required
the jury to convict a defendant of second degree murder if it found an intentional killing,
but did not permit the jury to first consider whether the killing was provoked by a sudden
quarrel, was an incorrect statement of the law, should be applied retroactively to his case
since it is a newly recognized substantive constitutional right.

From a limitations

standpoint it appears that Defendant Leonor would be basing his claim upon the
applicability of § 29-300l(4)(d).
8.

However, the Court in State v. W. Smith. 284 Neb. 636 (Neb. 2012) stated

that its decision in State v. R. Smith did not announce a new constitutional rule regarding
the second degree murder to manslaughter step instruction. Id. at 655. Thus, it does not
appear that Defendant Leonor can use § 29-300l(4)(d) as a triggering event to get around
the applicability of the limitations period. See State v. Harrison, 293 Neb. 1000 (Neb.
2016). Similar to the postconviction filing defendant in Hamson, even if State v. R.
Smith or State v. Trice, had recognized a new constitutional claim Defendant Leonor’s
successive motion would still be untimely. The opinions in State v. R. Smith were
released in 2011 and in 2013 for State v. Trice. Defendant Leonor filed his successive
motion that is before this Court in March of 2016, which is well after the 1-year
limitations period would have expired if either State v. R. Smith or State v. Trice had

5

recognized a new constitutional claim. Thus, Defendant Leonor’s claims are time barred
under Neb. Rev. Stat. § 29- 3001(4).
9.

After a thorough review of Defendant Leonor’s claims this Court finds

that the records and files in the case affirmatively show that Defendant Leonor is entitled
to no relief and that an evidentiary hearing is not necessary.
IT IS THEREFORE ORDERED, ADJUDGED AND DECREED that
Defendant Juan Luis Leonor’s Motion to Proceed In Forma Pauperis is granted;
IT IS THEREFORE ORDERED, ADJUDGED AND DECREED that
Defendant Juan Luis Leonor’s Successive Motion for Postconviction Relief is hereby
denied;
IT IS THEREFORE ORDERED, ADJUDGED AND DECREED that
Defendant Juan Luis Leonor’s request for an evidentiary hearing, to the extent requested,
is hereby denied;
IT IS THEREFORE ORDERED, ADJUDGED AND DECREED that
Defendant Juan Luis Leonor’s request for an appointment of competent counsel is hereby
denied.
IT IS SO ORDERED.
DATED this

day of September, 2017.
BYT

DISTRICT COURT JUDGE

6

APPENDIX

X

I

001

>391

IN THE DISTRICT COURT OP DOUGLAS COUNTY,
DOC.

)
)
)

STATE OF NEBRASKA,
Plaintiff,

149

.

NEBRASKA

NO.

/

834

CR\o-qtf/4H7
MOTION TO ALTER OR AMEND

)

VS .

JUDGMENT

SEP 1 3 2017)
JUAN LUIS LEONOR,
Defendant.
COMES NOW,
Stat.

Neb . Rev .

the Defendant
§

25-1329

Juan Luis Leonor,

(Reissue 2008;

and pursuant to

and/or current reissue),

hereby requests that this motion to alter or amend judgment be
granted

in which he

seeks substantive alteration of the
20 1 7

entered by the Court on September 6
Mr .

judgment

ordering the denial of

Leonor s successive postconviction motion.
FACTS
On or about March 2,

2016,

Mr.

Leonor sought successive post-

In this current.successive motion,

conviction relief in this Court.
Mr .

Leonor raises three claims

(hereinafter "Ronald-Smith claims").

Mr .

Leonor's Ronald-Smith claims raised in his current successive

motion are premised on.' the combination of the decisions in State v.
Ronald-Smith,
S.Ct.

2551

282 Neb.

(2015),

On September 6
conviction relief.

720

(2011),

Johnson v.

and Montgomery v.
201 7
See

Louisiana

138 S . Ct.

7 18

§

29-3001(4)(d),

(2016).

the Court entered an order denying post-

(Court Records).

In its order the Court

held that Mr. Leonor failed to meet the requirement in Neb.
Stat.

1 35

United States,

because State v.

not-held, to-be.a constitutional rule,

1

Rev .

Ronald-Smith's decision was

and that even if that decision

were to be a constitutional rule, Mr., Leonor has also failed to
bring the current postconviction motion within the one-year allowed
by §

denying Succ.
Mr .

I

See

29-3001(4).

Post.

Mot.,

at pp.

5-6) .

Leonor now brings in a timely fashion this motion seeking

substantive alteration of the
denying postconviction relief,
1 .

2017,

(Court's Order entered on September 6,

judgment entered on September 6

2017

for the reasons that follow:

Whether or not Nebraska Recognizes that the Decision in
Ronald-Smith is a new constitutional rule that applies
retroactively to cases in collateral review, Federal Law,
However,
First, Mr.

Compels such an Action.
Leonor acknowledges that the Nebraska Supreme Court

in State v. Williams-Smith

284 Neb.

636,

655

held that the

(2012)

decision in Ronald-Smith is not a new constitutional rule.of law.
However, it is not Nebraska law but through the veins of federal
law,

as held in Schriro v.

Summerlin,

5 4 27 U . S .

348

( 2004),

that

the decision in Ronald-Smith is a substantive constitutional rule
and federal law mandates that if Nebraska law is in contradiction
with federal law,
1 38

it must yield.

See Felder v.

Casey ,

487 U.S.

131,

(1988)("Under the Supremacy Clause of the Federal Constitution,

"the relative importance to the State of its law is not material
when there is a.conflict with a valid federal law,"
law, however clearly within a

for any state

state 1 s acknowledged power,

which

interferes with ir is contrary to federal law, must yield .")(Citations omitted).

As such,

the analysis to consider whether the

2

decision in Ronald-Smith is a substantive constitutional rule,
under federal law,

alone,

conviction motion,

at p.

is

as Mr. Leonor alleged in his current post2.

"A rule is substantive rather than procedural if it alters the
range of conduct or the class of persons that the law punishes."
Welch v.
v.

United States,

Summerlin,

136 S.Ct.

1257,

1265

See

(2016)(citing Schriro

'!This includes decisions that narrow the

supra) .

scope of a criminal statute by interpreting its terms ,

as well as

constitutional determinations that place particular conduct or
persons convered by the statute beyond the state's power to punish."
Also,

Id.(citations omitted).

a substantive constitutional rule is

a rule that "modifies the elements of an offense."
Summerlin

542 U.S.

In 2011,

at 354.

the Nebraska•Supreme Court held that manslaughter

upon a sudden quarrel
second degree
crimes,

Schriro v.

(Neb. Rev.

(Neb. Rev.

Stat.

§

Stat.

§

28-304),

28-305),

and murder in the

are both intentional

and that the factor that distinguishes them is only the

presence or absence of the sudden quarrel provocation.
Smith,

supra.

judgment became

Before Ronald-Smith,
final,

and at the time Mr. Leonor's

the interpretation of murder in the second

degree and manslaughter upon a sudden quarrel

was that the presence

or absence of intent was what distinguished them.
Jones,

245 Neb.

821

See Ronald-

See State v.

(1994).

The decision in Ronald-Smith necessarily modified the elements

3

Of murder in the second degree and
manslaughter upon a sudden
quarrel , by interpreting its
terms and placing particular conduct
covered by the statute beyond the State
s power to punish,
Ronald-Smith fits
within the criteria of what constitutes
tantive constitutional rule.

See Welch v. United States.

1257 j2016)(Slip Opinion,
at pp .

Thus ,
a subs­
1 36 S.ct.

1-15)(discussing the nature of a

substantive constitutional rule).

Therefore

under federal law
the decision in Ronald-Smi t,h is
a substantive constitutional rule
and Nebraska law must yield.
Second,

the U.S. Supreme Court
recently held that new subs­
tantive rules " must have retroactive
effect regardless of when the
defendant s conviction became final."
See Montgomery v. Louisiana.
138 S.Ct . at 730.
"[W]hen a new substantive
rule of constitutional
law controls the outcome of
a case, the Constitution requires state
collateral review
courts to give retroactive effect to that
rule."
Id. at 729.
Therefore, the substantive
rule in Ronald-Smith applies
retroactively in postconviction review,
either through subsections
( b ) . ( c ) , or (d) of Section §
29-3001(4), as wili»,be shown below.
The Court erred in limiting its
review and assessment to
Nebraska law, and not
on federal law, when deciding whether
RonaldSmith is.a substantive
constitutional rule that applies
retroactively
to cases in collateral review.
2.

Following the Decision in Ronald-Smith
Mr. Leonor brought
Claims One , Two , and Three in line
with § 29-3001(4)(d).

4

Section § 29-3001 ( 4) (d) states as follows:
(4) A one-year period of limitation shall apply to the
The

filing of a verified motion for postconviction relief.
one-year limitation period shall run from the later of:

(d) The date on which a constitutional claim asserted was
initially recognized by the Supreme Court of the United States
or the Nebraska Supreme Court, if the newly recognized right
has been made applicable retroactively to cases on postconviction
collateral review....
The Nebraska Supreme Court in recent case law construed the
applicability of the one-year period of limitation outlined in § 293001 ( 4) , to subparagraph (d) of that section.

It was determined

that the one-year limitations starts at the time the right is recognized and not at the time the right is made applicable retroactively
to cases on collateral review.
With that principle in mind, since Ronald-Smith was decided on
November 11, 2011 , then Mr. Leonor had until November 11,

2012 to

have brought his Ronald-Smith claims in accord with § 29-3001(4)(d),
regardless that Ronald-Smith was not held to apply retroactively on
collateral review.
March.:9 ,

That's exactly what Mr. Leonor did.

On or about

2012 Mr."Leonor filed a successive postconviction motion,

which this Court recognizes in its order denying the current postconviction motion.
at p •

See (September 6,

2) .

5

2017-order denying post. mot.

The three Ronald-Smith claims raised in Mr.
postconviction motion,
conviction motion.

Post. Mot.

Claim One of the current motion

filed until May 30,

of the current motion (pp.
March 9 ,

2012-motion
2012, PP •

2012, pp.

79-81).

28-35).

Claim Two

Post.

Mot . ,

filed

11-17), was raised as Claim Five in the March 9,

(pp.

motion

(See Court Records Succ. Post.

Mot.,

20 12-

filed until May 30,

38-41).

The Court denied Mr.- Leonor's March 9,

Denying Succ.
(Exhibit #

Post. Mot.,

2012-motion by entering

See

two orders each with different findings.

2012).

(See Court Records

And Claim Three of the current

motion

2012, pp.

5-9), was

(pp.

9-11), was raised as Claim Ten in the

2012-motion (See Court Records Succ.

until May 30,

2012-pos t-

were also raised in his March 9

raised as Claim Three in the March 9,
Succ.

Leonor1s current

entered on April 5,

1)(Order denying Succ. Post.

Seven months later,

Mot.,

(Court Records,
2012);

Order

see also

entered on May 22,

the Nebraska Supreme Court held that

Ronald-Smith was not a constitutional rule and that it did not
apply retroactively on collateral review.
Smith

284 Neb.

See State v.

Williams-

at 646.

As shown above, Mr.

Leonor did raise his Ronald-Smith claims

in a postconviction action within the one-year limitation of §
3001(4)(d)

29-

and in accord with current case law, which is what the

defendant in State v.

Harrison,* 293 Neb.

Moreover ■; - Montgomery v .

Louisiana,

6

1000

(2016)

failed to do.

supra, was decided on

January 25

2016.

And Mr.

tion motion on March 2,
forth in § 29-3001(4)

Leonor filed the current postconvic-

2016,

within the one-year limitation set

alleging that the decision in Ronald-Smith

is a substantive constitutional rule under federal law which through
the veins of Motgomery v.
Mr .

Louisiana it now applies retroactive to

Leonor's postconviction collateral review.

Defendant's current Post.
Therefore,

Mot. ,

at pp.

1 -2 ,

See

(Court Records,

S 5) .

the Court erred in time barring his current post­

conviction Ronald-Smith claims and it was error to apply State v.•
Harrison,
3.

supra,

to the circumstances of Mr.

Leonor 1 s case.

Mr . Leonor's Ronald-Smith Claims are Proper under
§ 29-3001 (4)(b) .
Section §
(4)

29-3001 ( 4.) ( b.)

states as follows:

A one-year period of limitation shall apply to the

filing of a verified motion for postconviction relief.

The

one-year limitation period shall run from the later of:

(b)

The date on which the factual predicate of the

constitutional claim of claims alleged could have been dis­
covered through the exercise of due diligence. . . .
Mr.

Leonor was not able to discover the predicate of his

Ronald-Smith claims until Ronald-Smith was decided in November
11,

2011.

Previous to 2011,

the law held that the difference

between murder in the second degree and manslaughter upon a sudden
quarrel, was the presence or absence of intent.

7

See State v.

Jones ,

In Ronald-Smith the Nebraska Supreme Court held

supra.

that murder in the second degree and manslaughter upon a sudden
quarrel are both intenticna'l .crimes, which is the predicate discovered by Mr.

Leonor.

Following the discovery of the predicate

from the decision in Ronald-Smith , as Mr. Leonor explained above
in Section 2 of this motion to alter or amend judgment,

he brought

his Ronald-Smith claims in a postconviction proceeding within the
one-year limitation period that §
See

2012.
2012;

(Court Records,

Claims

3,

5,

S

10).

29-3001(4)

imposes, on March 9,

Succ.

Post. Mot.,

filed until May 30

Thus,

the predicate of Mr. Leonor1s

Ronald-Smith claims was discovered through the exercise of due
diligence.
the predicate of Mr. Leonor's Ronald-Smith claims

However

could not have been completely discovered until such predicate
would have applied retroactively to cases on collateral review.
That , is,-Mr.

Leonor exercised due diligence in the discovery of

the predicate of Ronald-Smith claims until Montgomey v. Louisiana,
supra,

held that a substantive rule ought to apply retroactively

to cases in collateral review.
Thus,

even assuming arguendo that Mr.

claims do not meet the criteria in §
Leonor still contends it still do,
teria within §

29 - 3001 ( 4){b) .

Leonor's Ronald-Smith

29-3001 ( 4) (d) ,

which Mr.

his claims also meet the cri­

It is not whether the Nebraska

Supreme Court has said that the decision in Ronald-Smith provided
a constitutional rule that makes Mr.
tional nature,

Leonor's claim of constitu­

but the predicate of the decision in Ronald Smith
8

for purposes of §
Also ,

2 9-3001 <4)(b) .

since Mr. Leonor had raised his Ronald-Smith claims
2012-postconviction proceeding,

in his March 9,

it should be noted

that the Court denied that postconviction proceeding by finding
that:
[I]n reviewing his third motion,

[the Court] does not

believe that it affirmatively shows on its face the basis
relied upon for relief was not available at the time the
Nor does his

prior motion was filed.

third motion does not

raised any new issues that were not raised,

or available to

be raised, by the defendant at trial or in his initial post­
conviction motion.
See

(Exhibit #
As

1

P•

—

4) .

far as the Ronald-Smith claims are concerned, Mr. Leonor

has not been able to appeal
denial of his March 9,

to the appellate court the Court's

2012-postconviction motion,

because that

2012-postconviction proceeding has been still pending before the
Court on a "Motion to Vacate or Modify Judgment" submitted for
filing since May 5,
However,

2014.

See

(Court Records).

notable here is that the reasoning of the Court in

its order denying the March 9,

2012-postconviction motion differs

from the reasoning of the Court in its order denying the current
postconviction motion-in that,

the order denying the current post­

conviction motion states that Mr. Leonor is timely barred because
he could have raised his Ronald-Smith claims within one-year

9

47

following the decision in Ronald-Smith,
September 6,

see

2017-denying Succ. Pot. Mot.,

order denying his March 9,

(Order entered on
at pp.

5-6), while -the

2012-postconviction motion states that

his Ronald-Smith claims were procedurally barred because he could
have raised these claims at trial or in his initial postconviction
motion.

See

(Exhibit #

1,

As previously stated

p.

4).

Mr. Leonor's Ronald-Smith claims were

only available until after Ronald-Smith was decided in November
and he did raise these claims in his March 9,

201 1

viction proceeding within one-year following
Smith.

Thus ,

11,

2012-postcon-

the decision in Ronald-

it was error of the Court not to consider that Mr.

Leonor's Ronald-Smith claims qualify for the current postconviction
proceeding under §
4.

29-3001(4)(b).

Mr. Leonor's Ronald-Smith Claims are Proper under
§ 29-3001(4)(c).
Section §
(4)

29-3001 ( 4)(c )

states as follows:

A one-year period of limitation shall apply to the

filing of a verified motion for postconviction relief.

The

one-year limitation period shall run from the later of:

(c)
action

The date on which an impediment created by State
in violation of the Constitution of the United

States or the Constitution of Nebraska or any law of this
state,

is removed,

if the prisoner was prevented from filing

a verified motion by such state action....

10

The impediment given here is that the Nebraska Supreme Cdurt
failed to hoId:thatTthe decision in Ronald-Smith qualifies as a
"substantive rule" under federal law.
alsods the State of Nebraska.

The Nebraska Supreme Court

And such action by the State had

impeded Mr. Leonor from bringing his postconviction motion under
§ 29-3001(4)(d) because § 29-3001(4)(d) requires that the newly
recognized right has been made applicable retroactively to cases
on postconviction collateral review.

Id .

The farthest that Mr. Leonor could have advanced following
the decision in Ronald-Smith to bring his Ronald-Smith claims was
to file a postconviction motion to meet the one-year limitation
period under § 29-3001(4)

but nothing else, until the decision

in Ronald-Smith would have applied retroactively to cases on
collateral review.
Such time has come .

The U.S. Supreme Court in Montgomery

v . Louisiana , supra , held that "[W]hen a new substantive rule of
constitutional law controls the outcome of a case

the Constitu-

tion requires state collateral review courts- to give retroactive
effect to that rule."

Id.

136 S.Ct. at 729.

Thus, it was a

violation of the U.S. Constitution as recognized in Montgomery
v. Louisiana that the Nebraska Supreme court failed to hold that
its decision in Ronald-Smith was a substantive constitutional
rule that applies to cases on collateral review.
that through Montgomery v. Louisiana

the impediment created by

the Nebraska Supreme Court has been removed.

11

This means,

Therefore,

the Nebraska Supreme Court provided an impediment

by not holding that Ronald-Smith is a substantive rule under federal
law that would have applied retroactively in collateral review, and
that was a violation of the U.S. Constitution.

The impediment

created by the Nebraska Supreme Court prevented Mr. Leonor from
bringing a postconviction motion under § 29-3001 ( 4) (d) .
Montgomery v. Louisiana,

Through

that impedimend has now been lifted

which

entitles Mr. Leonor to bring his Ronald-Smith claims under § 293001 ( 4 ) (c) .

The Court erred in not holding that Mr. Leonor's Ronald-

Smith claims were proper under § 29-3001 ( 4)(c) .
5.

The Granting of the Appointment of Counsel and an
Evidentiary Hearing is Proper in the Current Proceeding.
For the reasons stated above in sections 1-4 of this motion

to alter or amend judgment, Mr. Leonor asserts that the appointment
of counsel and an evidentiary hearing is proper for the current
postconviction proceeding.

Thus, the Court erred in not granting,

an evidentiary hearing and the appointment of counsel.
6.

The U.S. and Nebraska Constitutions and Montgomery v.
Louisiana require States to Provide a Remedy for Mr.
Leonor's Ronald-Smith claims.
In Montgomery v. Louisiana

the U.S. Supreme Court held that

"[W]hen a new substantive rule of constitutional law controls the
outcome of a case,

the Constitution requires state collateral

review courts to give retroactive effect to that rule."
S.Ct. at 729.

Id.

136

If the Court still is not convinced that the Post-

12

r

"S

conviction Act is the remedy available for Mr.

Leonor to raise

his Ronald-Smith claims, then he asks the Court to consider the
holding in Montgomery v. Louisiana as a mandate for this Court
to treat his'motion titled Succesive Postconviction Motion, as
the proper motion or remedy that is available for Mr. Leonor.
Mr . LeOnor’s right to Access to the Courts, Due Process and
Equal Protection Clauses under the U.S. and-the Nebraska Consti­
tutions guarantee a remedy for Mr. Leonor to raise his RonaldSmith claims to be heard and redressed.
CONCLUSION+
For the reasons argued above, Mr. Leonor asks the Court to
alter or amend its judgment entered on September 6,

2017, and

provide the remedy and relief that he is entitled to.
;

, ,+k

Respectfully submitted on this 11

day ofQ

7 !M

2017, by,

a

eonor DOC #54664
SERVICE

CERTIFIC

The undersigned hereby certifies that a true and correct copy
of the foregoing Motion to Alter or Amend Judgment, was served
upon the State's Attorney, Mr. Don Kleine, Douglas County Attorney,
Hall of Justice, 17th and Farnam Streets, C
througrh_ U.S. Mail Service, postage prepaid^
hsjr
. 2017.

. B'o x 2 5 0 0
i. n cP'1 n, NE 68542-2500

13

APPENDIX

0

In State v. Abdulkadir, 286 Neb. 417 (Neb. 2013), the defendant
argued that "the step instruction given to his jury did not allow the
jury consider the crime of manslaughter while deliberating the
elements of second degree murder."

Id. at 426-427.

In response, the

Nebraska Supreme Court held, "[b]ecause the second degree murder
instruction required the State to disprove beyond a reasonable doubt
that Abdulkadir killed ]the victim] during a sudden quarrel, we
disagree."

Id (emphasis added).

The Nebraska Supreme Court added,

"[h]ere, the jury instructions allowed the jury to resolve the fact
issue regarding "upon a sudden quarrel" within the second degree
murder instruction."

Id. at 427-428.

Moreover, the Nebraska Supreme

concluded that the second degree murder jury instruction "satisfie[s]
the requirements set out in [William-]Smith...."

Abdulkadir, 286 Neb.

at 427-428.
In State v. Hinrichsen, 292 Neb. 611 (Neb. 2016), the jury
instruction given in that case to that defendant s jury also
instructed that to have convicted Hinrichsen of second degree murder
the jury must have found that "the.killings occurred (1) intentionally
(2) without premeditation and (3) not upon a sudden quarrel.

If the

jury found the State proved each of those elements beyond a reasonable
doubt, it was instructed that its duty was to convict Hinrichsen of

1

second degree murder."

If not, "it was then to consider whether the

state had proved manslaughter."
tions)(emphasis added).

Id. at 620.

(original internal quota-

The Nebraska Supreme Court added, "[t]he jury

instructions given properly enumerated each statutory element of each
degree of homicide.

Id. at 621 (emphasis added).

Similar, In State v. Gonzales, 294 Neb. 627 (Neb. 2016), the
jury in that case was instructed on the second degree murder
instruction that "[t]o find Gonzales guilty of second degree murder,
... it must find the State proved beyond a reasonable doubt that
Gonzales killed [the victim] and that he did so intentionally and not
as a result of a sudden quarrel."

Id. at 643 (emphasis added).

2

\

APPENDIX

42

Bruce Ferre!

Direct (Stratman)

1

on-the-job training and training through journals and other

2

publications, based on my assignment in those units that I have

3

been assigned to.

4
5

Q.

Have you also dealt with gang involved shootings and

homicides in your experience?

6

A.

Yes.

7

Q.

And in your experience as a homicide investigator and

8

investigating crimes involving gangs, are there guidelines for

9

gang members ’ identification or documentation that’s used?

10

A.

Yes.

11

Q.

And what are those guidelines?

12

A.

There is a set of criteria that includes a list of
Associate members would be people that

13

common denominators.

14

would have —— wear gang clothing, would be included in gang

15

photographs, would associate with known gang members, would do

16

gang graffiti.

17

things like gang tattoos on their body.

18

being their own self-admission that they were gang members, if

19

they were also included in gang affiliated crimes such as

20

destruction of properties or np.sdemeanor crimes, assaults,

21

things of that nature,

22

also elevate to the-status of when they do violent crimes such

23

as homicides or drive-by shootings, they may have a leadership

24

role within the gang.

25

narcotics distribution.

Then the members, they would include having
The most important

And then hard-core gang members, they

And, also, if they are involved in

Doc # 103 Filed: 08/25/17 Pagr

4:05-cv-03162-RGK-Pr

' of 76 - Page ID # 1418

43
Bruce Ferrell - Direct (Stratman)

And then, fi nally, any of all three of those

i
2

designations, whether it be associate, member, or hard-core

3

member, if yon were to get information from confidential

4

sources from other jurisdictions, if they had had a record in

5

their — while they were incarcerated in prison of gang

6

activity, all of those factors would figure into whether or not

7

they would be considered an associate, a member, or a hard-core

8

member.

9

designate those parties and their status.

10
11

Q.

usually we use two or more of those criteria to

And being involved in the gang unit, do you keep gang

files on each member that you have information on?

12

A.

7es•

13

Q.

Ar?fj you use those criteria to rank them whether they

14
13
16
17

are a hard-core member or associate member?__ __
A.

We utilise those to categorise them in those three

statuses, either an associate, a member, or hard-core member.
Q.

What type of information is included — when you hove

18

& documented gang member, what type of • documentation is

19

included in that file?

20

A.

Any kinds of stops that officers would make, traffic

21

stops when they would have been with known gang members, any

22

crimes in which they would have been investigated in, if they

23

were — made a self-admission to an officer that they were a

24

gang member, those types of things.

25

for a long period of time, they might have same prison

If they were incarcerated

Page 310 of 368

i

4:05-cv-03162-RGK-P

Doc #103 Filed: 08/25/17 Pag

N of 76 - Page ID # 1419

44
Bruce gerrell - Direct (Str&tman 1

1

information from the penitentiary about their gang activity

2

down in Lincoln.

3

Q.

And what does it mean to be " jumped in”?

4

A.

jumping in is a way — sort of a gang initiation-type

5

atmosphere where any number from three or more people will

6

initiate a new member by a physical assault on them.

7

try to fight back.

8

anywhere from 30 seconds to a minute*

9

quote, "jumped in” or assaulted and they have, you know, stood

10

up and taken their beating, then they are considered a member.

11
12
13
14
15

Q*

They will

And it‘s usually for a set time periodr
And once they’ve been,

What does it mean if someone says they are going to

take a bat to someone's house?
A.

It's been used in the aontaxt of a drive-by

shooting•
Q.

And, Detective Ferrell, in the course of your

16

experience and training, have you had experience with Lomas

17

gang members?

18

A.

Yes.

19

Q.

And have you had experience with Surenos gang

20

members?

21

A.

Yes.

22

Q.

And what experience have you had involving both of

23

those gangs?

24

A.

25

Since about the middle of 1998, there was a marked

increase in violence in South Omaha involving Lomas and Surenos

Page 311 of 368

4:05-cv-03162-RGK-Pr

Doc #103 Filed: 08/25/17 Pag'

" of 76 - Page ID # 1420

45
Brace Ferrell - Direct fStratman)

1

gang members, as veil as other Hlapanla gangs perpetrated by

2

Surenos on other gangs.
Q.

3

And did you determine in your investigating any

4

reason for the sig- — the significant increase in crimes

5

involving 8urenos gang members?
A.

6

I

It escalated significantly in 1999.

Yes.

Through interviews of Surenos gang members and

7

also

informants, the basics thing was that the

8

Surenos gang members wanted everyone to be a Surenos gang

9

member, *nd if you weren’t, then they were going to have
They were going to assault you, do drlve-by

10

problems with you.

11

shootings on you'until you decided to became a Surenos gang

12

member.

13

Q.

I
i- ■

Detective Ferrell, I would like to direct your

14

attention to the early morning hours of November 20th, 1999.

15

Here you on duty that morning?

16

A.

Yes.

17

Q.

And were you called out to Lalama Cafe at 21st and Q

18

Street?

19

A.

Yes.

20

Q.

And why were you a ailed to that location?

21

A.

The uniform officers needed some investigators at the

22
23
24
25

scene of a shooting at 2102 Q Street.
Q*

And do you recall what time you arrived at that

scene?
A.

About 1:30 in the morning.

/

!

Page 312 of 368

112
Rodolfo Cha-'

- Direct (Denton)

MR. ANTHONY TROIA:

1

CROSS-EXAMINATION

2
3
4
5

May I cross-examine?

BY MR. ANTHONY TROIA:
Q.

Mr. Chavez, how long did you say you were a member of

the Surenos gang?

6

A.

About three years.

7

Q.

About three years.

8

A.

Yeah.

9

Q.

And you talked about a code or something.

10

you about a code of silence?

Since you were 15 years old?

She asked

Is that right — or something?

11

A.

Yeah.

12

Q.

You get in the gang by you getting beat up or other

13

people getting beat up?

14

A.

I getting beat up.

15

Q.

All right.

16
17
18

And you testified that you are out — the

purpose of your gang is to go out and commit crimes; right?
A.

Pretty much — not like go after other people, like

other gangs that we don't get along with.

19

Q.

Like Lomas?

20

A.

Yes, like fight them or stuff like that.

21

Q.

All tight.

And have you ever been convicted of a
i
■yr

22

felony?

23

A.

No.

24

Q.

When did you first — when were you first interviewed

•U

25

by the police department?

4:05-cv-03162-RGK-Pr

' Doc # 103 Filed: 08/25/17 Pagr ' of 76 - Page ID # 1422

114
Rodolfo Chavez - Cross /Anthony Trola)

1

Q.

So you are saying that four of yon went in there?

2

A.

Yeah.

3

Q.

Bov, are you sure it wasn't just three of yon that

4
5

A.

Ho.

6

Q.

Eow long were yon in there?

7

A.

A aouple of minutes or so.

8

Q.

What was the reason that the gang was mad at

9
i

went in there?

:

Hr. Silva?

10
11

I remember it was four.

A.

To my knowledge, because, X guess, he has done stuff

to us, too, or to other individuals of my gang.

12

Q.

Wasn't there a drive-by shooting where one of the

13

members of the Lamas gang — or the Surenos gang's mother was

14

shot?

15

A.

Z heard about it.

16

Q.

Whose mother was that?

17

A.

Gorge.

18

Q.

Gorge Vargas Gutierrez, or was it Gorge Macias, also

19

known as Speedy?

20

A.

Yes.

21

Q.

And did Speedy know, if you know, that Lomas was

22

responsible for the shooting of his mother?

23

A.

I didn't know nothing of it.

24

Q.

All right.

25

A.

Hot that X can remember, no, he wasn't.

On that evening was Speedy with you?

Page 314 of 368

4:05-cv-03162-RGK-PRSE Doc # 103

Filed: 08/25/17 Page 59 of 76 - Page ID # 1416

181

Gerardo Oxtix - Direct /stratum!

1

Q.

And what did Malo say to yon?

2

A.

That they had shot somebody.

3

Q.

That they had shot scctobody?

4

A.

Yeah.

S

Q-

They were laughing?

6

A.

Yeah.

7

Q.

Did he tell you who was driving?

8

A.

He was driving.

9

Q.

Malo wan driving?

10

A.

Yeah.

11

Q.

And Creeper was shooting?

12

A.

Yeah.

13

Q.

14
13
16
17

Did Malo tell yon something about they had thrown
Snrenos gang signs at
oar?
A.

They had thrown same at
the other person had
thrown Lanas at them, That's why they had thrown
Snrenos bnafc
at them.

18

Q*

19

A.

And that's why they did what they did?
Yeah.

20

Q.

Does he tell yon how they rHd it?

21

A.

They didn't say.

22
23
24
25

They just said they were following

them, jnst shooting tins*.

Q.

ten, the — yon have talked to the polios
several

times — a couple ol times
actually j is that right?
A.
Yeah.
£
17
Page 315 of 368

APPENDIX
"\

■,.4—

28 O.S.C. § 224?. states, in relevant part:
Application for a writ of habeas corpus shall be in writing signed
and verified the person for whose relied it is intended
or by someone
acting on his behalf.
It shall allege the facts concerning the applicant' s commitment or
detention, the name of the person who has custody over him and by virtue
of what claim or authority, if known.
It may be amended or supplemented as provided in the
rules of
procedure applicable to civil actions.
If addressed to the Supreme Court, ... it shall state the reasons
for not making application to the district court of the district in which
the applicant is held.

1

?/

. :~

appendix

•?

r

28 U.S.C § 2243- states , in relevant part:
"A court, justice

or judge entertaining an application for a

writ of habeas corpus shall forwith award the Writ
or issue an order
directing the respondent to show cause why shall writ
should not be
granted, unless it appears from the application
person detained is not
entitled thereto.
The writ or order to show

cause shall be directed to the person

having custody of the person detained.

It shall be returned within three

days unless for good cause additional time,
not exceeding twenty days, is
allowed.
The person to whom the writ

or order be directed shall make a return

certifying the true cause of detention.
When the writ or order is returned
a day shall be set for a hearing,
not more than five days after the return unless for
good cause additional
time is allowed.
When the application for the writ and the
return present only issues
of law the person to whom the writ is directed
shall be required to
produce at the hearing the body of the person detained.
The applicant or the person detained
the facts set forth in the

may, under oath, deny any of

return or allege any other material facts.

The return and all suggestions made against it
may be amended, by
leave of the court, before or after being filed.
The Court shall summarily hear and determine
the matter as law and justice require.

1

the facts, and dispose of

appendix

s

n

",

28 U.S.C. § 2244 fb) . states in relevant
part that:
(1) A claim presented in a second
or successive habeas corpus
application under Section 2254 that was presented in
a prior application
shall be dismissed.
(2)

A claim presented in a second or successive habeas
corpus
application under Section 2254 that was not
presented in a prior
application shall be dismissed unless—
(A) the applicant shows that the claim relies
on a new rule of
constitutional law, made retroactive to

cases on collateral review by the
Supreme Court that was previously unavailable; or
(B) (i) the factual predicate for the claim could
not have been
discovered previously through
the exercise of due diligence; and (ii) the
facts underlying the claim,
if proven and viewed in light of the evidence
as a whole, would be sufficient to
establish by clear and convincing
evidence that, but for constitutional error,
no reasonable fact finder
would have found the applicant
guilty of the underlying offense.
(3)(A) Before a second or successive application
permitted by this
Section is filed in the district
court, the applicant shall move in the
appropriate court of appeals for an order
authorizing the district court
to consider the application. ...
(E) the grant or denial of

an authorization by a court of appeals to

file a second or successive application shall

not be appealable and shall

not be the subject of a petition for rehearing
or for a writ of
certiorari. .

1

(d)(1) A 1- year period of

limitation shall apply to an
application
for a writ of habeas
corpus by a person in
custody pursuant to the
judgment of a state
court. The limitation
period shall run from the
latest of—
(A) The date on which the
judgment became final by the
conclusion of
direct review or the expiration
of the time for seeking such
review;
(B) the date
on which the impediment to filing
an application
created by state
action in violation of the
Constitution or laws of the
United States is removed; if the
applicant was Prevented from
filing such
state action;
(C) The date on which the
constitutional right asserted was
initially recognized by the
Supreme Court, if made
retroactively
applicable to cases on collateral
review; or
(D) the date

on which the factual

presented could have
diligence.

predicate of the claim
or claims
been discovered through the
exercise of due

(2)

The time during which a
properly filed
application for state
postconviction or other collateral
review with respect to the
Pertinent
judgment or claim is
pending shall not be
counted toward any period of
limitation under this
subsection.

2

f

J

appendix
••

.■**

T

V.
\

u

i

I
28 U.S.C. §2254, states in relevant part:
(a) The Supreme Court, a justice thereof, a circuit judge, or a
district court shall entertain an application for a writ of habeas corpus
in behalf of a person in custody pursuant to the judgment of a state
court only on the ground that he is in custody in violation of the
Constitution or laws or treaties of the United States...
(b)(1) An application for a writ of habeas corpus on behalf of a
person in custody pursuant to the judgment of a state court shall not be
granted unless it appears that—
(A) the applicant has exhausted the remedies available in the courts
of the State; or (B)(i) there is an absence of available State corrective
process; or (ii) circumstances exist that render such process ineffective
to protect the rights of the applicant.
(C) An applicant shall not be deemed to have exhausted the remedies
available in the courts of the State, within the meaning of this section,
if he has a right under the law of the States, by any available
procedure, the question presented.

1

